@OCKLE

L egal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 ‘Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-532

UNITED STATES OF AMERICA,
Petitioner,
v.
STATE OF CALIFORNIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4030 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 22nd day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

oe bez C Collite Qudiaw-h, Chk

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38943

 
